<html>
<title> - ENVIRONMENTAL NGOs IN CHINA: ENCOURAGING ACTION AND ADDRESSING PUBLIC GRIEVANCES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 ENVIRONMENTAL NGOs IN CHINA: ENCOURAGING ACTION AND ADDRESSING PUBLIC 
                               GRIEVANCES

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2005

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-182                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

CHUCK HAGEL, Nebraska, Chairman      MEMBERS TO BE APPOINTED
SAM BROWNBACK, Kansas
GORDON SMITH, Oregon
JIM DeMINT, South Carolina
MEL MARTINEZ, Florida
MAX BAUCUS, Montana
CARL LEVIN, Michigan
DIANNE FEINSTEIN, California
BYRON DORGAN, North Dakota

                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  STEPHEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Economy, Elizabeth, C.V. Starr Senior Fellow and Director of Asia 
  Studies, Council on Foreign Relations, New York, NY............     2
Ru, Jiang, expert on environmental management and planning in 
  China, Washington, DC..........................................     6
Adams, Patricia, Executive Director, Probe International, 
  Toronto, Canada................................................     8

                                APPENDIX
                          Prepared Statements

Economy, Elizabeth...............................................    28
Ru, Jiang........................................................    31
Adams, Patricia..................................................    33

 
 ENVIRONMENTAL NGOs IN CHINA: ENCOURAGING ACTION AND ADDRESSING PUBLIC 
                               GRIEVANCES

                              ----------                              


                        MONDAY, FEBRUARY 7, 2005

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2255, Rayburn House Office Building, John Foarde (staff 
director) presiding.
    Also present: Carl Minzner, senior counsel; Adam Bobrow, 
senior counsel; Susan Weld, general counsel; Katherine Kaup, 
special advisor; and Laura Mitchell, research assistant.
    Mr. Foarde. Good afternoon, everyone. Welcome to this 
Issues Roundtable of the Congressional-Executive Commission on 
China.
    As I was telling our panelists a moment ago, the members of 
the CECC for the 109th Congress have not been appointed yet, 
but we expect appointments in the next few days. We wanted no 
more time to go by before we got busy with this continuing 
series of public events that enable us to learn more about 
specific issues relating to the mandate of the CECC. So today 
we are happy to welcome, on behalf of our future chairs and 
members, three very distinguished panelists to talk to us about 
environmental NGOs in China.
    Rapid economic growth in China has resulted in massive 
degradation of China's rivers, marshes, forests, and waterways, 
prompting the rise of a new generation of citizen activists who 
challenge government policies. The victims of environmental 
pollution, farmers displaced by huge hydro-electric power 
projects, and citizens concerned with the loss of China's 
natural wildlife are joining an increasing number of Chinese 
environmental NGOs to make their voices heard on issues that 
affect them.
    We want, this afternoon, to examine the role of Chinese 
non-governmental organizations [NGOs] and their role in 
allowing Chinese citizens a voice on national environmental 
policy and their ability to serve as a channel for the 
grievances of individual victims who are harmed by specific 
projects.
    We have three distinguished panelists this afternoon, and I 
will introduce each in more detail before they speak. Each will 
have the chance to present for about 10 minutes. After about 
eight minutes or so I will remind you that you have two minutes 
left.
    Inevitably, you do not have the time to cover everything 
that you would like to cover, so we will return during the 
question and answer period to some of those themes.
    So, let us begin. We are pleased to welcome back Dr. 
Elizabeth Economy, the C.V. Starr Senior Fellow and Director of 
Asia Studies at the Council on Foreign Relations in New York 
City. Dr. Economy is an expert on a variety of topics on U.S.-
China relations, and particularly on Chinese domestic and 
foreign policy. But her particular focus for some time has been 
on the environment. She is a member of many academic and non-
governmental organizations 
focused on U.S.-China relations, and on environmental issues, 
including the China-U.S. Center for Sustainable Development, 
the Scholars Environmental Change and Security Project of the 
Woodrow Wilson International Center, and the National Committee 
on U.S.-China relations. She is the author of ``The River Runs 
Black,'' a book on the environmental challenges to China's 
future.
    Welcome, Liz Economy, please go ahead.

 STATEMENT OF ELIZABETH ECONOMY, C.V. STARR SENIOR FELLOW AND 
  DIRECTOR OF ASIA STUDIES, COUNCIL ON FOREIGN RELATIONS, NEW 
                            YORK, NY

    Ms. Economy. Thank you, John, and thank you, Carl, for 
inviting me. It is my great pleasure to have this opportunity 
to share with you some of my experience, interactions, and 
understandings of China's environmental NGO community. I have 
been looking at issues related to China and the environment for 
almost 15 years now, and as far as I am concerned, there is no 
area that is more dynamic or exciting than the non-governmental 
sector.
    I would like just to touch briefly on four points during my 
presentation. First, what is the nature of the NGO movement? 
Second, how has it evolved? Third, what is the relationship 
between the State and the NGOs? And fourth, what are some of 
the challenges that I see confronting NGOs in the future?
    Just as a note, my remarks are going to focus exclusively 
on the NGOs that have not been initiated in any way by a 
government body. These are not government-organized NGOs.
    First, the nature of the NGO movement. Again, I have 
interacted with NGO activists for many years now and have found 
them, overall, to be highly educated, articulate, and 
oftentimes quite charismatic people. Many of them have 
backgrounds as journalists or otherwise have been engaged in 
media activities.
    I think this is important because it has made them very 
adept at getting their message across to the Chinese people and 
to the Chinese Government. Many NGO activists in China have 
also spent time abroad, particularly in the United States, 
either at universities or training with U.S.-based NGOs.
    Most of China's renowned NGOs, such as Liang Congjie of 
Friends of Nature, and Liao Xiaoyi of Global Village Beijing, 
are based in Beijing. But they are also very actively engaged 
in helping to develop smaller NGOs throughout the country. They 
direct activities that engage a wide number of NGOs. For 
example, Liao Xiaoyi will bring together NGOs from outside of 
Beijing for Earth Day activities in Beijing; she also arranged 
for 12 NGOs to attend the Johannesburg Summit and put together 
a video depicting Chinese NGOs and their activities.
    There are also green camps that were founded by the 
environmental activist, Tang Xiyang, who is one of the great 
environmental thinkers in China. These green camps serve as a 
training ground for young Chinese environmental activists. You 
also find that, within the environmental community, many NGO 
activists hold positions on each other's boards. Hu Kanping, 
for example, who is the editor of China Green Times, serves on 
the board of Friends of Nature, as well as Global Green Grants 
China.
    Finally, some members of Beijing-based NGOs leave and start 
their own NGOs in other parts of China. They may go to Yunnan 
or Sichuan to establish new NGOs. Through this mechanism, there 
is really a cross-fertilization or pollination process by which 
NGO activism has become an environmental movement.
    The second issue I want to raise is how has this movement 
evolved. The first formally registered NGO was Friends of 
Nature, which was founded in 1994 by Liang Congjie. This was 
quickly followed by Global Village Beijing in 1995, which 
registered as a private business entity under the Bureau of 
Industry and Commerce. Since that time, officially, more than 
2,000 NGOs have formally registered. I think there are perhaps 
as many NGOs that are either registered as private business 
entities, such as Global Village Beijing, or simply not 
registered at all. You can find some very prominent NGOs in 
China that have absolutely no affiliation, tie, or registration 
with the Chinese Government.
    But as striking as the increase in the number of NGOs may 
be, I think far more telling has been the dramatic evolution in 
the nature of NGO activity over the past decade. Initially, I 
think there was a very conscious decision made to focus on 
issues that were considered relatively politically safe, such 
as environmental education or bio-diversity protection. By the 
late 1990s, NGO leaders became more assertive. For example, 
there was the ``Go West'' campaign in 1999 that was initiated 
by Jiang Zemin. This was an effort to develop the western part 
of China and bring living standards closer to those of the 
coastal region. The government set out ecological construction 
or environmental protection as one of the five major tenets of 
this campaign, but there was some concern within the NGO 
community that in reality, it would simply turn out to be 
business as usual and you would have very rapid development and 
exploitation of the environment with minimal environmental 
protection.
    In response, Liang Congjie and other environmental 
activists, for example, agitated within the top echelons of the 
Chinese Government to get the State Environmental Protection 
Administration [SEPA] included among the 22-agency leading 
group that was going to oversee the campaign. This eventually 
proved to be successful.
    Liao Xiaoyi also stepped forward to voice her concerns 
quite publicly in the Chinese media that funds were going to be 
siphoned off for environment protection because of corruption. 
She called for NGO oversight of the distribution of these 
funds. So you had new, more aggressive approaches being taken 
by these NGO leaders.
    It was also at this time that you had the founding of Wang 
Canfa's Center for Legal Assistance to Pollution Victims. As 
some of you may know, he is just an amazingly energetic, 
enthusiastic, and accomplished lawyer who has single-handedly 
been prosecuting environmental pollution cases on behalf of 
``pollution victims.'' I think he has prosecuted 60 cases 
against polluting enterprises in China, and prosecuted many of 
them successfully. So, again, this represented a bit of a 
ratcheting up of Chinese environmental NGO activity.
    Today, of course, you see Chinese NGOs engaged in virtually 
every sector of environmental protection in China. Again, many 
are still focused on biodiversity issues, and many of the 
smaller NGOs that spring up in China's west focus on the 
protection of one particular species or a particular region of 
biodiversity, but you see many more now branching into air and 
water pollution.
    For example, the Huai River Guardians, or Protectors, a 
group founded by a photographer, Huo Daishan, now has 1,000 
volunteers going through villages all along the Huai River and 
its tributaries, trying to educate villagers about how polluted 
water is 
affecting their health, trying to get them to see doctors, and 
trying to raise money to dig deep-water wells to bring them 
access to clean water.
    This past summer, Chinese NGOs engaged directly in an 
energy-conservation campaign, which is an issue on which NGOs 
had not been particularly focused, except for the more 
technical/think-tank oriented NGOs. So this past summer there 
was a ``26 degrees Celsius'' campaign that started in Beijing 
and was designed to get the hotels and other public spaces to 
keep their thermostats at 26 degrees Celsius for energy 
conservation at a time when China was facing serious energy 
shortages.
    This campaign was then picked up by 30 NGOs nationwide. In 
China today, there are also two different environmental NGOs 
that run journalist forums to engage journalists on a weekly or 
monthly basis about environmental issues. This is an enormously 
important and effective means of bringing environmental 
education to the people. Fifty or sixty journalists will come 
to hear an expert on wind power, and then go off and write 
articles on wind power. So, I think this is a really important 
mechanism by which NGOs are getting their message to the 
broader public.
    One of the newest NGOs, and I just read about it, frankly, 
over the past week, is the Global Environment Institute. This 
NGO is based in Yunnan and has very strong international 
support. In fact, I think it was actually spurred by 
international actors rather than necessarily coming up from 
grassroots. Nonetheless, this institute is working on 
everything from bio-gas for farmers in Yunnan to bus rapid 
transit in Beijing and other cities. I think this will be an 
interesting NGO to watch.
    Obviously, one of the most high profile and exciting things 
that have transpired in the past two years or so has been the 
NGO activity that has dealt with the dam construction and 
large-scale hydropower plants. This development would have been 
my favorite thing to talk about, but I know that we have a real 
expert here to talk about that subject. So I am going to steer 
clear of it and just make one point, which is that I think 
nothing shows you how far the environmental movement has come 
in the past 15 years or so than the fact that Dai Qing was 
arrested for her book on the Three Gorges Dam, ``Yangtze! 
Yangtze!,'' and today we have environmental NGOs launching 
campaign after campaign against these dams. So, I really think 
there has been a sea change.
    I know that Jiang Ru is going to discuss the ways in which 
NGOs define their space in terms of the government, but let me 
just say a couple of words about that. I think it is important 
to understand that, by and large, NGOs in China work hand-in-
glove with the State Environmental Protection Administration 
[SEPA]. There is a lot of cooperation, both behind the scenes 
and in public. The ``26 degrees'' campaign, the ``Go West'' 
campaign, even on these dams, and certainly on the recent 
infrastructure projects are all conducted with at least the 
tacit approval of SEPA.
    I think that with all these initiatives, NGOs know that at 
this particular point in time, because of Pan Yue within the 
State Environmental Protection Administration, because of 
Premier Wen Jiabao, and because of new leadership priorities 
having to do with the rule of law and a slow-down in 
investment, they have the ear of very senior people within the 
government. There is a confluence of interests coming together. 
The decision to halt 30 major infrastructure projects after 
just a few weeks on the grounds that proper environmental 
impact assessments were not completed has to be understood in a 
broader context of priorities such as enforcing the rule of law 
and slowing down massive infrastructure investment.
    If we put aside SEPA, however, relations between 
environmental NGOs and local governments and local 
environmental protection bureaus, are far less clear cut.
    I will finish by saying that, in October, the Ministry of 
Civil Affairs apparently let fly some rumor, or at least 
suggested, that it was considering lifting the requirement that 
NGOs register with a government agency or body. This would be a 
truly profound change, not only for environmental NGOs, but for 
the entire nature of civil society in China. We will have to 
wait to see, however, whether that comes to pass.
    I will just stop there and welcome your questions.
    [The prepared statement of Ms. Economy appears in the 
appendix.]
    Mr. Foarde. Good. Thank you. We will come back to some of 
those very interesting topics in the Q&A session.
    Let me then recognize Dr. Jiang Ru, who is an expert in 
environmental management and planning, with a Ph.D. in those 
topics from Stanford University. He is an expert on 
environmental planning and management and environmental NGOs in 
China. His Ph.D. dissertation examined how the Chinese state 
implemented its NGO regulations and policies and how 
environmental NGOs acted under such state controls at the end 
of the 1990s, and in the first few years of the 21st century. 
Dr. Ru is working with the Natural Resources Defense Council 
here in Washington, and consulting for the World Bank on 
environmental issues in China.
    Welcome. Thank you very much for coming.

 STATEMENT OF JIANG RU, EXPERT ON ENVIRONMENTAL MANAGEMENT AND 
               PLANNING IN CHINA, WASHINGTON, DC

    Mr. Ru. Thank you, John, and thank you, Carl. Thanks to the 
rest of the Commission staff for inviting me to speak here 
today as a part of this panel.
    Before I start, I want to say ``Happy Chinese New Year, Xin 
Nian Hao.''
    As an independent scholar, I hope my statement can 
introduce you and other policymakers in this country to a new 
perspective on the dynamics of state controls of the 
environmental NGOs in China. This statement is based on my 
Ph.D. dissertation, ``Environmental NGOs in China: The 
Interplay of State Controls, Agency Interests and NGO 
Strategies,'' completed in August 2004 at Stanford University. 
The statement I make today represents my personal opinions only 
and does not reflect the views of any organizations with which 
I was previously, or am currently, affiliated.
    In my 10 minutes, I will introduce the design and 
implementation, and then four of the main findings of my 
dissertation.
    My findings indicate that, despite onerous state control 
measures, environmental activists were able to create NGOs and 
operate with a fair amount of freedom by self-censoring the 
activities of their NGOs. Understanding the growing autonomy 
and self-censorship of Chinese NGOs provides a considerable 
opening for international organizations to assist Chinese 
environmental NGOs.
    The goal of my research was to understand how the Chinese 
state has officially described its control of NGOs, how the 
state has controlled environmental NGOs in practice, and how 
environmental NGOs have interacted with the state to conduct 
their activities. To achieve my research goals, I analyzed 
China's NGO policies and regulations to identify measures the 
state has employed to control NGOs, surveyed a group of 11 
national and 11 local Beijing environmental NGOs to understand 
how NGO control measures were enforced in reality based on 
these NGOs' experience. I conducted three case studies to 
further examine how different environmental NGOs had interacted 
with government agencies at the national and local levels to 
save three endangered wildlife species.
    The NGOs I studied included both formally registered 
government-organized NGOs, or GONGOs, with over 10 full-time 
staff members, and unregistered citizen-organized NGOs with 
only a few volunteers. From 1999 to 2003, I made four trips to 
China and stayed in China for a total of 21 months. During 
these trips, I interviewed governmental officials, NGO staff 
members, NGO researchers, environmental volunteers, and 
environmental experts. In addition, I collected multiple 
sources of evidence, such as governmental documents and NGOs' 
internal documents.
    My research has four main findings. The first finding is, 
the Chinese state has developed a vigorous set of NGO 
regulations to control the development and activities of NGOs 
in China. Three key control measures of these regulations are: 
that an NGO has to be registered at a civil affairs office, 
according to its geographic scope of activities; second, that 
an NGO has to find a supervisory organization to sponsor its 
registration with a civil affairs office.
    Here, a supervisory organization, referred to as a 
``mother-in-law organization'' by some scholars, is a state-
authorized organization that sponsors an NGO's registration 
application to a civil affairs office, and then supervises the 
NGO's activities after the NGO registers with the civil affairs 
office. The third measure I identified, is that civil affairs 
offices will force NGOs to correct any violations of above-
noted and other NGO control measures.
    My second finding shows some of the 22 environmental NGOs I 
surveyed experienced no strict state control declared in NGO 
regulations, as I just described. Based on the experience of 
the 22 NGOs, I found that some of those NGOs violated the above 
control measures without being punished by civil affairs 
offices. For example, five citizen-organized NGOs were not 
registered with any civil affairs offices as independent NGOs, 
but conducted their activities openly without experiencing any 
explicit control exerted by any government agencies. For those 
NGOs registered with civil affairs offices, civil affairs 
offices had only controlled the registration of those NGOs. A 
common statement made by my NGO interviewees was that civil 
affairs offices had barely interfered with their NGO's 
operations.
    In contrast to civil affairs offices, supervisory 
organizations of those GONGOs included in my study not only 
supervised the operations of those NGOs, but also exerted 
financial and personnel control over those NGOs.
    The third finding of my study is that state control has 
been 
implemented in the ways described above because of the state's 
decreasing administrative capacity, the interests of 
supervisory organizations that control NGOs for their own ends, 
and the ability of the NGOs to censor themselves to the degree 
that their activities do not lead to repressive actions by the 
state.
    Civil affairs officials I interviewed stated that their 
offices had limited resources to track and correct every NGO 
violation. In addition, because civil affairs offices had no 
resources to register all prospective NGOs and the Chinese 
Government had a policy to encourage voluntary activities as a 
way to advance the well-being of society, civil affairs offices 
allowed the existence of unregistered NGOs as long as these 
NGOs had not committed any financial misdeeds or posed any 
political threat.
    This strategy of civil affairs offices was well 
acknowledged by the 22 environmental NGOs I studied. According 
to my interviewees, self-censorship of these NGOs helped them 
avoid any unwanted attention of civil affairs offices. Although 
some of the 22 NGOs violated formal control measures, leaders 
of these NGOs were aware of the limits of how far they could go 
in violating controls without attracting negative attention 
from the state.
    In terms of government agencies acting as supervisory 
organizations of the GONGOs included in my study, I found that 
self-interest motivated these supervisory organizations to 
exert financial and/or personnel control over the GONGOs they 
supervised. In practice, supervisory organizations use the 
GONGOs to engage in international cooperation projects, to 
raise funds, to provide services, and to place excess employees 
when their agencies are downsized.
    The last finding of my research is that GONGOs are 
generally effective in performing tasks related to official 
responsibilities of their supervisory organizations, such as 
policy consultation and 
information exchange. In contrast, citizen-organized NGOs were 
engaged mainly in three types of activities: public education, 
environmental advocacy, and grassroots environment activities. 
This finding is based on the daily activities of the 22 
environmental NGOs I studied and their efforts in the three 
wildlife conservation cases. Citizen-organized environmental 
NGOs included in my study were especially effective in 
mobilizing resources to challenge local development decisions 
that were detrimental to the natural environment. However, I 
found that no NGOs took any confrontational approaches to 
conduct their activities. Thank you.
    [The prepared statement of Mr. Ru appears in the appendix.]
    Mr. Foarde. Thank you very much. Again, a very useful and 
thought-provoking review of the structure of how environmental 
NGOs work in China. We appreciate it very much. Very 
interesting dissertation, which we must read now. I assume it 
is published, correct?
    Mr. Ru. Yes, thank you.
    Mr. Foarde. Good. I would like to go on to recognize 
Patricia Adams, the Executive Director of Probe International, 
an independent think-tank that examines the environment 
consequences of Canadian Government and corporate activities 
around the world. Her books include: ``In the Name of Progress: 
The Underside of Foreign Aid,'' and ``Odious Debts: Loose 
Lending, Corruption and the Third World's Environmental 
Legacy.'' She also edited the English language translation of 
``Yangtze! Yangtze!,'' the critique of the Three Gorges dam by 
Chinese experts that was banned after its publication resulted 
in the postponement of construction on the dam.
    We have had a great many experts come from a good, long 
distance to talk to us over the last three years, but you have 
come a longer way than most, and we appreciate it very much.

    STATEMENT OF PATRICIA ADAMS, EXECUTIVE DIRECTOR, PROBE 
                 INTERNATIONAL, TORONTO, CANADA

    Ms. Adams. Thank you, John. All the way from Toronto. Thank 
you, Carl. Thank you very much for inviting me to speak before 
this Commission staff panel. It is a great honor.
    As John has said, I am the Executive Director of a Toronto-
based organization, an environmental group called Probe 
International. For 25 years, we have worked with citizens in 
Third World countries to help them fight development projects 
that undermine the environments that they depend on. Since the 
early 1980s, Probe International has monitored the world's 
largest and most controversial dam project, the Three Gorges 
dam, on China's Yangtze River. We have done so by working with 
academics, researchers, and press in China, including Dai Qing, 
the celebrated Chinese journalist who spent 10 months in jail 
for publishing ``Yangtze! Yangtze!,'' a book that was authored 
by China's most eminent scientists and scholars. Probe 
International translated and published it, and a subsequent 
book also edited by Dai Qing called ``The River Dragon Has 
Come.'' Both books are banned in China today.
    We also published our own damning critique of the dam's 
official feasibility study, which was financed by the Canadian 
Government and conducted by Canadian engineers, and has been 
used to justify building the Three Gorges dam. I am also the 
publisher of Three Gorges Probe, which is an Internet news 
service that Probe International began in 1998 to report on 
Three Gorges and other dams in China. Our goal has been to 
circumvent the ban on criticism of the Three Gorges dam. We 
believe that projects such as Three Gorges can be built only in 
the absence of good information about their real costs and 
benefits, and in the absence of an informed public debate. Our 
goal has been to let the facts for and against dams speak for 
themselves and to help inform the public by providing the 
Chinese press, scholars, and activists with a safe forum in 
which to publish their views.
    But perhaps our news service's most important goal has been 
to record and publish details of the harm done by Three Gorges 
and other dams in the hope that future generations will be 
protected from more of the same. Three Gorges Probe is 
published in both English and Chinese. The two sites together 
have close to a quarter of a million page views per month and 
their readership has consistently grown over the years, last 
year by 150 percent.
    Three Gorges Probe is relied upon by scholars, grassroots 
activities, environmentalists, and the press. Our stories have 
ended up on the front pages of the international media and on 
Chinese Internet sites, and on the chatrooms of, for example, 
China Youth Daily, Sina.com, and even the Changjiang Water 
Resources Commission.
    Sometimes within days of our stories exposing a scandal or 
a threat at the dam, dam authorities would announce either that 
the problem does not exist, or is being solved. Through our 
sources in China and our scrutiny of Chinese publications, we 
have succeeded in obtaining a good deal of information about 
events surrounding the Three Gorges dam.
    In my written submission to you, you will find a number of 
examples of the level of detail that shows what we have been 
able to provide, on everything from energy analysis, to 
environmental analysis, to safety concerns, and to human rights 
abuses. Where do we get our information? Until recently, I 
would say that details of citizen protests or criticism of dams 
in China have not come not from the formally recognized 
government-approved NGOs. Until recently also, lawyers have not 
come forward to help aggrieved citizens. With the exception of 
a few aggressive newspapers, very little information beyond 
propaganda has come from the mainland media.
    Instead, over the past 20 years, critical information about 
Chinese dams has come in an ad hoc way from journalists, 
activists, site research, the Internet, and dam authorities. 
Much of the expert opinion we rely on has come from Chinese 
scholars, many of whom are elderly and, having survived years 
of abuse for voicing their opinions, have become even firmer in 
their resolve to speak out for the sake of future generations. 
Over the years, many of those academics who dared to criticize 
dam plans were deprived of their teaching posts, their research 
funds, and shunned in their professional lives. This has been a 
tragic reality for dam critics.
    Other critics have lost their right to publish, some have 
been demoted, still others have been visited in the middle of 
the night by the police and warned not to talk to foreign 
journalists. Average citizens, dam-affected citizens such as He 
Kechang, whom I have described in my written submission to you, 
and his compatriots from Yunyang county, have been jailed on 
trumped up charges because they sought justice for the losses 
they suffered because of the Three Gorges dam.
    The few mainland newspapers that dared to disclose negative 
details about Three Gorges or other planned dams have had their 
top editors fired and their management charged with corruption. 
In our own work to publish critical information about the 
environmental, economic, and technical problems with Chinese 
dams, we have also had to take precautions. Most of our Chinese 
contributors use pseudonyms, and we are always circumspect in 
our communication.
    I believe that this oppressive atmosphere is going to 
change. The recent protests against the proposed construction 
of dams in western China are a sign of the changing times. 
Chinese citizens affected by dams are becoming acutely aware of 
their rights and are prepared to fight for them. Academics and 
environmentalists are able to help them, the press is very 
interested in covering their stories, and the Internet 
facilitates all parties' communication. These protests have 
been so effective that, by the end of 2004, work on over a 
dozen dams had been suspended.
    Then on January 18 of this year, the State Environmental 
Protection Administration [SEPA], China's top environmental 
agency, accused the proponents of 30 infrastructure projects, 
26 of which were energy schemes, in 13 provinces and 
municipalities involving billions of dollars, of starting 
construction before the projects' environmental impact 
assessment reports were approved. SEPA then ordered them to 
suspend construction. This is an extraordinary and 
unprecedented move by the central government. The Chinese 
Government enforcement authorities sent state enterprises, 
local governments, and the private sector a message they had 
never heard before: ``We have a law that requires you to submit 
an environmental assessment for your project in order to get 
approval to 
proceed, and if you do not abide by the law, we will suspend 
your construction until you do so.''
    Now, the Three Gorges Project Corporation was among the 
companies forced to comply. This is believed to have come as a 
result of direct pressure from the central government. Not only 
has Premier Wen Jiaobao backed SEPA, but according to news 
reports, SEPA enlisted the support of the powerful National 
Development and Reform Commission, the country's top planning 
authority, to enforce its order.
    While academics are encouraged by this cooperation between 
SEPA and NDRC, they remain cautious because SEPA has not dealt 
with the fundamental environmental issues such as whether these 
projects should be built in the first place, and whether 
meeting the environment impact assessment law will just be a 
paper process. This caution is very well placed. SEPA's 
environmental assessment law is not going to save China's 
environment.
    My organization has a 20-year history of reviewing 
feasibility studies for large development projects, starting 
with the massive feasibility study for the Three Gorges dam, 
which included an environmental assessment. It was so rife with 
errors, omissions, and bias, that we filed formal complaints of 
professional negligence against the engineering firms that 
conducted it.
    Environmental assessments are usually conducted by the 
proponents, they are paid for by proponents, or they are 
controlled by the proponents. Because the proponents are not 
held legally 
accountable to those they harm or put at risk, proponents can 
discount the costs they inflict on others. Their environmental 
cost assessments need not accurately or comprehensively match 
reality. Their assessments routinely over-estimate benefits 
without substantiation. In the end, environmental assessments 
become nothing more than public relations exercises to 
whitewash bad projects.
    Now, I doubt that SEPA's unprecedented actions of the past 
two weeks will permanently stop any of these 30 projects, but 
SEPA's enforcement of China's new environmental impact 
assessment law could have a profound effect in a different way. 
By upholding the law, SEPA would force proponents to carry out 
environmental 
assessments and to consult with local communities before giving 
approval for infrastructure projects. In so doing, the central 
authorities would uphold and enforce the rights of Chinese 
citizens and NGOs to know, to debate, and to participate in the 
decisions that affect their environment.
    In a country where citizens have been jailed, fired, 
demoted, threatened, and even physically attacked for 
attempting to exercise these basic rights, this is a 
fundamental step toward enshrining the rights of citizens to 
protect their environment.
    Many commentators look at China's 1.3 billion citizens and 
see them as the world's largest threat to the global 
environment. I do not see them that way. Instead, I see the 
Chinese Government as the largest threat and the citizenry as 
the world's largest group of front-line defenders of the 
environment.
    Give Chinese citizens the right to know, the legal and 
political tools and the security to exercise their rights, and 
to hold accountable those who would destroy their environment, 
and the world will see a dramatic turn-around in the dismal 
state of China's environment. Thank you.
    [The prepared statement of Ms. Adams appears in the 
appendix.]
    Mr. Foarde. Pat, thank you very much for an impassioned and 
interesting presentation. We will come back to some of the 
themes.
    I would like to let our panelists rest their voices for a 
minute while I make an announcement or two. The transcript of 
today's roundtable will be available publicly in a few weeks. 
Keep checking the CECC Web site, which is www.cecc.gov, for not 
only the papers from today's presentations, but also the full 
transcript. Please, if you have not done so already, sign up on 
the Web site for our mailing list and you will get e-mail 
notification of our hearings and roundtables, and other 
announcements.
    Let us go now to the question and answer session. What we 
normally do is for the next 50 minutes or so, the staff panel 
up here will ask you questions and listen to the answers for 
about five minutes each, and we will do as many rounds as we 
have time for, or until the topic is exhausted.
    I will begin, in exercise of the prerogative of the chair, 
by addressing a question to anyone who wants to pick it up.
    The next couple of years are going to be particularly acute 
in this regard, but everyone who works on China in Washington 
is very interested in the impact of the Olympic Games in 2008 
on lots of things in China. Do any of you think that there is a 
tie-in for Chinese environmental NGOs with the Olympic Games, 
and does anyone have the slightest factual idea of what 
commitments the Chinese Government may have made to the IOC 
about the environment?
    Ms. Economy. I do not have any information about the 
commitments that the Chinese Government made with regard to the 
Olympics, short of saying they were going to have ``green 
games.'' But I do know that initially the Chinese Government 
recruited the environmental NGO community in Beijing to sign a 
petition signaling their support for Beijing's Olympics bid.
    There was some reservation initially among some of the NGOs 
that signed on, but they decided that, in any event, it would 
help to spur environmental protection in China. They realized 
that they were being used to some extent, but they decided that 
it was worth it for the long-term benefit that might accrue to 
environmental protection.
    One thing I have heard recently is that the NGOs have since 
been relatively cut out of this process, and that as the 
Beijing Government has moved forward, they are not engaging the 
NGOs in thinking through and the planning for these green 
Olympics. Rather, they are relying on outside consultants and 
multinationals to do much of this work. There is some concern 
among the NGO community about this trend. This is not to say 
that in the next four years they will not get re-engaged, but 
at this point in time they do not seem to be part of the 
planning process, per se.
    In terms of where I see the green Olympics actually making 
a difference, I would say just primarily in Beijing, although 
there has been an effort now looking outside at some of the 
surrounding provinces because they realize that air quality, 
for example, is not simply a function of Beijing's efforts to 
improve air quality.
    Mr. Foarde. Does anybody else have a comment? Please, go 
ahead.
    Mr. Ru. When I was in the field in 2001, I attended one of 
these meetings organized by Beijing Environmental Protection 
Bureau [EPB]. Basically, they invited most of the NGOs and 
volunteer groups in Beijing to attend a consultative meeting.
    At that meeting, Beijing EPB's deputy director actually 
came into the meeting and introduced Beijing's environmental 
protection plan for the following years. In that meeting, there 
was not enough time for those EPB officials to get feedback or 
responses from the NGO community.
    Mr. Foarde. Thank you very much. I want to make sure that 
everybody gets a chance to ask questions, so I am going to move 
on and recognize Susan Roosevelt Weld, who is the general 
counsel of the Commission, for questions. Susan, please.
    Ms. Weld. Thank you very much, John. I am wondering about 
the issue of media supervision of environmental pollution. 
Elizabeth, you said that media was a large factor in the 
current growth of NGOs and activists. And certainly as far as 
corruption goes, the media are supposed to be a big part of 
fighting against corruption, too, this process called yulun 
jiandu, which means ``public opinion expressed through the 
press to criticize what the government is doing.'' Do you see 
that as an effective way of controlling abuses having to do 
with the environment in different levels of the government? I 
would like to ask this question to anybody who has a thought on 
this. The question is really about yulun jiandu, supervision of 
the government through public opinion. Will that be effective 
or not effective in helping to control environmental abuse?
    Ms. Economy. Are you talking broadly about the press using 
its investigative powers, or are you talking about drawing in 
public criticism, specifically public criticism? I guess I am 
not quite clear.
    Ms. Weld. It is really an interesting term. It means 
mobilizing. It initially meant mobilizing public opinion 
against government abuses, against government corruption, in 
the last regulations.
    Ms. Economy. What I have seen certainly a lot in the 
Chinese press have been investigations. For example, in the 
case of the Huai River, a number of Chinese media went to 
villages all along the Huai and talked to villagers to find out 
what has changed in the last decade. The Huai River had a huge 
pollution disaster in 1994 and the media did a type of 10-year 
retrospective in 2004, because there had been these government 
campaigns to clean it up. The government had announced that the 
Huai River clean-up campaign was a success, and it really was 
not. So, all these media representatives farmed out to villages 
along the Huai and discovered that the villagers believed that 
not much had changed or even that the situation had 
deteriorated further. A local EPB official said, ``What do you 
expect? You do not have clean officials, you are not going to 
have clean water.'' Certainly in the case in Yunnan where Yu 
Xiaoguang, the head of Green Watershed, almost came under 
arrest because he was talking about the corruption involved. 
China Youth Daily went and did an expose on this, too.
    I am not quite sure whether this response is getting at 
what you are asking, but I certainly see the media as an 
incredibly important part of exposing what is going on on the 
ground. They do talk to people on the ground, although perhaps 
they are not really mobilizing them.
    Ms. Adams. If I could just add to that. We have certainly 
noticed the media becoming freer in its discussion of technical 
problems of, in our case, hydroelectric dams, economic 
problems, resettlement problems, and also corruption. But these 
changes have been quite recent, I would say, in the last year, 
year and a half.
    Before that, there is, of course, the Southern Daily group 
of newspapers which--I am trying to remember the dates of some 
of the early stories that they did certainly around 2001--
exposed issues of corruption and irregularities in bidding 
processes involving the Three Gorges dam. As you know, they 
have been harassed, with some of the staff, senior editors, 
being fired, and then more recently being accused of 
corruption. As I understand it, these are, in all likelihood, 
trumped up charges.
    So I think there is obviously a clear role. I think that in 
the case of the cancellation of proposed dams, the media 
campaign that contributed to the cancellation of the Yangliuhu 
dam was extremely powerful. As I understand it, there are about 
180 media sources--newspapers, radios, television--that jumped 
into the debate. It was unprecedented. We have not seen that 
kind of thing before. We have seen sporadic elements of it here 
and there, but it has been very risky for the press to cover 
sensitive issues like this. It has been as risky for them as it 
has been for NGOs.
    So, I think you can see a change going forward at the same 
time, both among environmentalists and the press as well. It is 
a terrific support to the citizens when the media try to expose 
this sort of thing.
    When He Kechang and his three compatriots went to Beijing 
to try to report on corruption associated with the Yunyang 
resettlement program, Dai Qing tried to assist them in getting 
the Beijing media interested. The Beijing media was not the 
least bit interested in hearing the migrants' stories. The 
government was not interested either. Eventually, she took them 
to meet with CNN, but I think her first goal was to get this 
information to the Chinese press--this was in 2001, I believe--
and they were not interested. So, things have changed since 
then.
    Mr. Ru. In my study, I observed that environmental NGOs 
have teamed up with journalists. Some journalists list 
themselves as leaders of environmental NGOs. Some environmental 
NGOs have a larger group of members from the news media. I 
think that the national media are very effective in monitoring 
local development 
activities. Local news media may have limitations to act 
against local pollution issues because of their close 
affiliation with local governments.
    Mr. Foarde. Very useful. Thank you. It is our practice to 
involve and recognize the people on the staff who are primarily 
responsible for organizing each of our issues roundtables, so 
it is my pleasure to introduce two of our colleagues. First, 
Carl Minzner, who is senior counsel. Carl.
    Mr. Minzner. Thank you very much. Thanks to all the 
participants for coming. As you know, one of the areas I cover 
for the Commission is civil society issues, and I am 
particularly interested to listen to what you have to say about 
NGOs. I quite appreciate all of you making the trip down here 
to speak at our roundtable. Let me turn the focus to 
international cooperation. As you know, there is much 
international cooperation with Chinese environmental NGOs. 
There are a number of issues that I have observed sometimes 
with this cooperation. For one, many local Chinese NGOs become 
overly dependent on foreign funding, and you could list several 
other issues as well.
    Mr. Ru. As I mentioned, GONGOs are very active in different 
issue areas. GONGOs, because they have close relationships with 
government agencies, they have been introduced by their 
supervisory organizations to foreign agencies and NGOs. Their 
connection with government agencies might help foreign NGOs to 
get 
access to those agencies, and thus to influence the 
decisionmaking process of those agencies. For grassroots 
citizen-organized NGOs, they have helped foreign NGOs to get 
direct access to local communities and to conduct grassroots 
activities. So I think that is going to depend on what foreign 
organizations want to achieve with the cooperative relationship 
with Chinese NGOs.
    Ms. Economy. Let me just add a couple of points to that. 
One of the things I have noticed taking place in the Chinese 
NGO community has been a degree of dissatisfaction within some 
quarters concerning its interactions with the international 
community. Some Chinese NGOs, I think, are concerned that 
international agencies or NGOs try to dictate the programs they 
undertake or the timeframe in which something ought to be 
accomplished. This suggests that if you are going to work with 
a Chinese NGO, you have to listen closely to what it wants to 
do and look closely at its particular area of expertise.
    On the flip side, one complaint from international NGOs has 
been that Chinese NGOs occasionally take on too much and that 
they are not really technically proficient enough to get the 
job done.
    At the same time, international NGOs have had some striking 
success. For example, one NGO that works on energy-related 
issues has really advanced the nature of the debate and pushed 
its particular approach quite far up the ladder. To achieve 
this, however, the U.S. NGO experts spend an enormous amount of 
time in China; the American who is spearheading the project, 
for example, travels to China every six weeks to keep pushing 
his project. Thus, there still has to be a very deep level of 
engagement by the U.S. side. More recently, this NGO has hired 
a Chinese expert who was trained in the United States, who is 
used to working with a U.S. frame of mind, but who is based in 
Beijing. I think this has been an incredibly powerful 
cooperative effort. So, if you are working on a technical 
issue, it would probably be useful to find people who were 
trained here and have spent time here, but who were raised in 
China.
    Finally, I think anybody who is dealing with NGOs--and I 
think by now most international non-governmental organizations 
know this--has to approach the effort with a multi-tiered 
strategy. It is simply not enough to work with NGOs. You have 
to work with the local governments and you have to work with 
Beijing.
    Every level has to be engaged in this project because, 
fundamentally, you are working on changing some kind of policy, 
the implementation of that policy, a standard, a technology, or 
something. You have to have the support of Beijing and the 
local governments; it is not enough to just work with the NGO.
    Ms. Adams. I would reiterate that and say that, certainly 
the individuals with whom we have worked in China have taught 
us that you have to take your lead from them. The situation 
they face is very complex and sometimes dangerous, and you have 
to listen to them about the way they want to handle it.
    I would say one of the most important things is just to 
make sure they have the information that is useful in making 
sound judgments and understanding what the costs and benefits 
are of various investments.
    I would make one very specific recommendation, which was 
called for recently by a coalition of environmental groups in 
China, and that is for better monitoring for seismic activity 
around dams.
    At the time of the filling of the reservoir of Three 
Gorges, we ran an article--we have several on our Web site--
which described the difficulties that the dam monitoring 
institution in Beijing, which is called the Dam Safety 
Monitoring Center, has in inspecting the 86,000 dams in the 
country that have a higher incidence of collapsing. More dams 
have collapsed in China than perhaps anywhere else.
    Now we have the Three Gorges, which is the biggest, and is 
in an area where there are major fault lines, where there is 
geological instability, riverbank collapses, and landslides. 
God forbid, if there were ever catastrophic dam failure, we 
would be talking about the loss of millions of lives. So I 
would strongly urge--now, this is not so much a recommendation 
for an NGO, I think, but more for the U.S. Government--to make 
available resources for--and specifically what this 
organization in Beijing has asked for is--better laws to back 
up their inspection process, and early warning systems. This 
would include both geological/seismic warning systems, 
emergency evacuation plans, and emergency preparedness plans to 
warn people downstream in the event of a catastrophic dam 
failure.
    Of course, Three Gorges is the biggest and would be 
certainly the most devastating, but there are 22,000 large dams 
in China. The institution that is charged with the 
responsibility of monitoring them does so on a budget of about 
$100,000 a year.
    Mr. Foarde. I would like, now, to recognize the other staff 
member who really did a lot of heavy lifting to organize 
today's roundtable, and she is principally responsible for our 
environmental issues monitoring this year. Laura Mitchell is 
our research associate at the end of the dais. Over to you, 
Laura.
    Ms. Mitchell. These questions are for all of you. I 
wondered if you could talk a little bit more about the ways 
environmental NGOs help victims of pollution take legal action 
against polluters, and have courts generally ruled in favor of 
polluters or victims of pollution? Do you foresee changes to 
the current situation?
    Ms. Economy. The one lawyer who I know well that works on 
this issue is the one who most people know well, and that is 
Wang Canfa in Beijing. He has a team. It is not just one man at 
this point. From my perspective, he has had an extraordinary 
degree of success. He is enormously persistent, and that 
accounts for a lot of it. When he has lost at a lower-level 
court, he will pursue the case up and up the ladder, as he has 
done several times. I think he has had about 60 cases that he 
has prosecuted over the past five years or so since he first 
founded the center, and I know 20 of them have been fully 
resolved. I do not know how many of them were resolved in his 
favor, but I certainly know he has had successes.
    There is still a sense that it is a very difficult process, 
and part of it has to do with the nature of the courts, their 
understanding of the environment, their understanding of 
environmental law, et cetera. But I think that the general 
trend is a very positive one.
    I suppose my concern is that I am not aware of many other 
legal centers like this one. I am sure they exist in other 
cities, and maybe Jiang Ru, you know of some. But I have not 
encountered them. So if I have one concern about the direction, 
it is just how many people are engaged in all of this, how many 
environmental lawyers China actually has. I think a few years 
back, China had only 100 environmental lawyers, although I am 
sure the number is far greater now than then. I think the 
trend, in any case, is generally a positive one. In addition, 
Wang Canfa does not operate alone. He will draw on other NGOs, 
bringing in scientists to help him test water quality or the 
media to publicize his efforts. He is part of a much larger 
network, so he does not operate alone in that sense.
    Mr. Ru. I think Elizabeth is correct. Until now, I have 
only seen the Center for Legal Assistance for Pollution Victims 
[CLAPV] to bring pollution cases to the court on behalf of 
pollution victims.
    I talked with Professor Wang Canfa several times and he 
mentioned that his organization faced difficulties in finding 
evidence to support their cases, especially when there was not 
a clear causal relationship between the pollution activities 
and the damage caused by the pollution. He had a problem with 
the local courts, they were not independent. He mentioned that 
local courts were directly under the control of local 
governments and local governments had interests in local 
industries.
    Elizabeth also mentioned that Wang Canfa used the news 
media very effectively. Professor Wang mentioned that when 
there was a lot of media exposure, the case might be resolved 
in favor of the victims. In cases where no media attention is 
put on the case, it is difficult for his NGO to help the 
victims.
    Professor Wang also mentioned the importance of 
international support to his organization. He has been 
conducting training for environmental lawyers in China. He did 
two or three training sessions last fall, I think, in Xi'an and 
in Chongqing. I do not have the exact number, but he has 
already trained more than 50 environmental lawyers in China.
    I actually read one news piece that reported that one 
environmental lawyer in Chongqing who was trained by the CLAPV 
had brought a pollution case to the court. Thanks.
    Ms. Adams. Thank you, again. These are not pollution cases, 
but cases where people have lost their land because of two 
dams, one is Three Gorges, and the other is the Taolinkou 
reservoir in Hebei province.
    In the case of He Kechang, who represents people displaced 
by Three Gorges, it turns out he was arrested with three 
colleagues who had been sent off as delegates to Beijing to try 
to appeal to Communist Party officials for their compensation 
funds that had been corruptly taken by local officials. He was 
detained, along with his colleagues, for eight months, 
incommunicado. He eventually was tried and he was sentenced to 
a three year jail term, and his colleagues to two years. 
Essentially, we followed up on it but nobody else did in China. 
No NGOs. No formally recognized NGOs. I think this is a role 
for human rights organizations outside of the country. I think 
it is a sign of the sensitivity of Three Gorges, and of dam 
projects in particular, that environmental NGOs inside the 
country do not really want, or so far have not been able, to 
pursue it or felt it was just too risky for them.
    There is also another case, a very interesting case that 
emerged last year, of a community displaced by the Taolinkou 
reservoir in Hebei province. That community collected a 
petition with 11,000 signatures, found themselves a lawyer in 
Beijing, and attempted to deliver their petition to the 
National People's Congress last year. When the local officials 
found out about it, the officials chased the petitioners to 
Beijing, and arrested seven of them. Two of the representatives 
and the lawyer were not caught, and off they went on a chase 
around Beijing, where they went from one hiding spot to 
another, and one computer to another, where the lawyer sent out 
online updates of what was happening. At the same time, he was 
using the computers to do Google searches for the Constitution 
of the PRC and various other administrative laws in China so 
that he could use those to defend himself and his clients.
    In cases like that, I think we need outside organizations. 
Of course, if there are some within China who can follow up on 
it and help defend them, that is wonderful, but so far we have 
not actually seen that happen. I think it is an indication of 
how sensitive some of these dam projects are.
    Mr. Foarde. Not only are you giving extraordinarily good 
answers, but I noticed that your technique in passing the 
microphone is exemplary. [Laughter.]
    I now would like to introduce our friend and colleague, 
Katherine Palmer Kaup, who is a special advisor to the 
Commission this year, and joining us on her sabbatical year 
from her associate professorship at Furman University in 
Greenville, SC. Kate.
    Ms. Kaup. Thank you. We have talked some about foreign NGOs 
cooperating with Chinese NGOs. I was hoping you might speak a 
little bit more about domestic Chinese NGOs' cooperation with 
one another. Particularly, to what extent are they cooperating 
and are there formal restrictions on their doing so. Would 
their lack of cooperation be more a sign of self censorship, or 
some other obstacle?
    Ms. Economy. I am not aware of any prohibition on NGOs 
cooperating with one another. Environmental NGOs are not 
supposed to have branches of their own organization in other 
provinces, so you cannot have Friends of Nature in Sichuan, 
although, in any case, Liang Congjie has said that he does not 
want to have branches because it would be too much 
responsibility for him to manage.
    Certainly, though, I have never seen any prohibition on 
NGOs interacting and working together. On virtually any of the 
major issues, whether it be the kind of campaigns that Jiang Ru 
was talking about having to do with species protection, the 
Tibetan antelope, golden snub-nosed monkey, or petitions 
against dams, you will have multiple NGOs engaged. Some will be 
locally based NGOs, and several will usually be Beijing-based 
NGOs. The Beijing NGOs are like national NGOs and have a very 
far reach. They are typically the best funded, the best 
staffed, they have the most members, and they are everywhere. 
They permeate all aspects of environmental protection 
throughout the country. As I mentioned, they will also start 
campaigns--like the ``26 degrees Celsius'' campaign--and then 
the campaign will be picked up by 30 more NGOs nationwide in 
different places.
    So, there is really an enormous amount of cooperation that 
goes on. It can be as small as the journalist forums that I was 
mentioning. Two of them will work together to put on one event 
or, for example, there might be a photography exhibit sponsored 
by several NGOs.
    In fact, you rarely see one NGO hosting an event or 
launching a campaign. Even when they are writing letters to the 
central government, they are doing it together with a number of 
signatures on the letter. So, I think there is an extraordinary 
amount of cooperation that goes on.
    Mr. Ru. From my experience in my research, I found many 
citizen-organized NGOs were created based on the first NGO, 
Friends of Nature or Green Camps, and they have close, personal 
relationships with each other. So when they have an 
environmental campaign, they often work together.
    Also, I found some national-level GONGOs, like one NGO 
affiliated with SEPA, has invited some citizen-organized NGOs, 
like Friends of Nature or Global Village Beijing, to 
participate in some international events organized by the GONGO 
or by SEPA. I did not see much cooperation between GONGOs. 
There is some cooperation, but less substantive. Thanks.
    Ms. Economy. I just want to make one last little point on 
that topic that I think is important. Some of the Beijing-based 
NGOs really do take the smaller NGOs under their wing.
    You will find, for example, activists such as Wen Bo, who 
spend an enormous amount of time trying to help smaller NGOs 
learn how to write grant proposals or develop programs. There 
really is a kind of nurturing quality to the way that these 
larger NGOs look upon the smaller, regionally based NGOs.
    Ms. Adams. That is certainly our impression as well. I 
should just say, there was always a lot of cooperation among 
scholars who wanted to get views across to the government, for 
example, the cautioning by 53 expert scholars in China to the 
government against raising the reservoir level of the Three 
Gorges dam, so that it could be monitored over time to make 
sure that the sediment did not accumulate too quickly and 
essentially cause the same hazard that happened at the 
Sanmenxia dam. So, that certainly has happened, that there was 
cooperation. Our experience has always been as well, if it is 
safe, then there is lots of cooperation. There is an awful lot 
of communication and sharing of expertise. Then, of course, in 
the last year or two we have seen an explosion of that sort of 
cooperation, with the groups sending off joint letters to the 
government.
    One of the other very important ones, to my mind, is 
calling on the government to start doing these geological 
surveys around existing dams.
    Mr. Foarde. Really useful. Let me go on and recognize our 
colleague, Adam Bobrow, who is a senior counsel on the 
Commission staff. Adam.
    Mr. Bobrow. Thanks, John. I am the senior counsel for 
commercial rule of law. Typically, I think commercial 
development is thought of as being opposed to or contrary to 
environmental protection. Perhaps that is a false choice. But I 
guess I am interested in how--the WTO commitments that China 
has made obviously have little or nothing to do with the 
environment directly, but at the same time, contain a large 
measure of increased transparency, 
increased requirements for governance of organizations and 
government. I am wondering whether you have uncovered any sort 
of anecdotal evidence of what I guess I want to call the folk 
influence of the WTO, where you see somebody saying, ``well, we 
have joined the WTO so we have instituted this measure.'' You 
think to yourself--you usually do not express it--but it has 
nothing to do with trade, so I do not know how it may be 
directly related. Have you found any sort of anecdotal linkage 
or relationship?
    Mr. Ru. At least from my study, I did not see that link. My 
personal view is that the Chinese state is striving to address 
all social and environmental issues, and it is a challenge for 
the country. Especially the central government, I think, 
undercounts a physical regimen. They have fewer resources to 
influence local governments' decisions, to monitor local 
governments' activities. So, promoting transparent and open 
administration is the goal of the government. They are pushing 
in that direction.
    Ms. Economy. I have not heard anything. I actually saw, not 
that long ago, maybe in October or November, one of the 
participants in the environmental working group that the 
Chinese Government has for the WTO. All he said to me was that 
he was very disappointed that the EU had stopped pushing for 
environmental regulations within the WTO, because he and his 
colleagues were very much looking forward to that as an 
opportunity to sort of strengthen their hand domestically.
    Ms. Adams. I am not a WTO expert, but in the energy sector, 
anything that forces greater transparency, that attempts to 
eliminate subsidies, subsidies that can come in the form of the 
right to pollute, is going to help the Chinese environment. So, 
I would say, generally, that these trade relationships will 
force a higher environment standard. We certainly found it in 
the case of the Canada-U.S. Free Trade Agreement, that it 
improved the environmental standards in Canada because the 
United States has higher environmental standards than we have. 
So I think that often you find, under these trade agreements, 
that the bar goes up and that there are pressures on the 
country with the lower environmental standards to raise them.
    Of course, NGOs have to be vigilant and watch that and 
monitor it, and generate the information and get it through to 
the various governing bodies, but I think it can certainly be a 
force for good.
    Mr. Bobrow. Thank you. I would like to hear any sort of 
elaboration, just looking at Liz's book. You do not have to go 
any further than the first chapter to see that it has been a 
choice between economic growth and environmental protection, 
and that has sort of have been the way that the government has 
viewed it. You see the Huai River, the enormous amount of 
degradation has come because of a lot of economic development. 
To what extent does the panel believe that this choice is a 
false choice, that this is something that was not necessary in 
the first place, and may not be necessary going forward, and 
that there are possibilities for continued economic 
development, but with environmental protection built in?
    Ms. Economy. We are a little off the topic of the NGOs, but 
I will take this question. I think that you are beginning to 
see the development of a new environmental consciousness in 
China, some of which is emanating from Pan Yue and SEPA. What 
you have in China today are two positive trends when it comes 
to the choice between economic development and the environment. 
On the one hand, you do have cities like Dalian, Xiamen, 
Zhongshan, and Shanghai that are getting relatively wealthier, 
and you see them beginning to invest more of their own 
resources into environmental protection, in some cases 
beginning to turn the corner. Sometimes they cannot quite stay 
ahead of the game, but they are trying. There is definitely 
interest in environmental protection and a belief that economic 
development and environmental protection need to go hand in 
hand, and ``we want to clean up our city.'' China has a model 
environmental city and province program. These places are 
striving to achieve that model status. They want to be listed 
on the Web site. They want to be able to say, ``Hangzhou, a 
beautiful city for foreign investment,'' like the Hangzhou 
advertisement says. So I think on the one hand you see that 
kind of trend, as cities and regions are getting wealthier they 
are making better choices. The other thing that is happening is 
that you are really beginning to see the environment impinge on 
economic development. I think for the first time, really, this 
past year, I have seen in the Chinese media a lot of attention 
being paid to the economic costs of environmental degradation 
and pollution. All of a sudden, in the Chinese press you are 
getting all these numbers generated: $6 billion lost because of 
desertification, $28 billion lost in industrial output 
because of water scarcity. You see these impacts reported in 
the Chinese press.
    Companies near Shenzhen or Guangzhou are reporting that 
they could only fulfill a quarter of their Christmas orders 
because they did not have enough water to run their factories. 
You are having a real impact on local economies of resource 
scarcities. So I think you have these twin processes taking 
place. Then you have someone like Pan Yue ready to capitalize 
on that and saying, ``We need to do green GDP. We need to take 
into account environmental degradation and pollution into our 
GDP accounting.''
    You have Shanxi province coming out ahead of all of the 
training, ahead of everything that was supposed to be done, and 
saying, ``We have already done our own green GDP and we have 
determined that, over 10 years, if we account for all 
environment degradation and pollution, it negates virtually all 
GDP growth.''
    We have no way of knowing, of course, how this Green GDP 
was actually calculated, but the real point is that I think you 
are getting the development of a new consciousness. It is going 
to take time, but you are seeing the seeds of it.
    Ms. Adams. Yes, I think the tradeoff between protecting the 
environment and economic development is a false dichotomy. I 
think dams are actually a good example to use to try to 
describe why this is so. Millions of Chinese citizens are worse 
off today than they were before they were displaced from their 
land, from their farms, from their homes by hydroelectric dams.
    Of course, the argument is made, ``Well, we needed the 
power. We needed the economic development.'' But, if the 
creators of harm are forced to internalize the costs that they 
are inflicting on other members of society, then you start to 
get good accounting. You really start to get good cost/benefit 
analyses. But you cannot get that when the rights of citizens 
are being violated systematically, when they do not have the 
right to defend themselves in courts of law, really resorting 
to the rule of law.
    So, you have an economic fiction that a certain investment 
is good for the economy, when you really do not know what the 
real costs are because they have been inflicted on people who 
are voiceless. So, you have got to find a way to internalize 
the real costs. How do you do it? I think, through the rule of 
law. You have got to empower individuals with the power to 
force a polluter to compensate them, because that is when you 
can actually convert costs into monetary value, and that is how 
investors figure out whether they want to proceed with an 
investment. Are the benefits really greater than the costs? As 
long as proponents can hide the social costs, well, they can 
justify any investment.
    I think, also, we tend to discuss China's environmental 
problems in global terms, whether it is air pollution, the loss 
of forests, or loss of a fresh water supply. But the thing to 
remember is that although these are macro problems, there are 
always micro victims. There are individuals who feel the effect 
of the pollution first, before the rest of us even begin to get 
a sense of what they are. If those individuals had the right 
from the beginning to stop the polluter from putting whatever 
the toxin is in that water supply, for example, then you have 
got environmental protection. You have got very effective 
environmental protection. If people who rely on a forest, for 
example, can protect that forest, then you have got 
environmental protection. The people who are trying to protect 
their 
environment want electricity. They want a more comfortable 
lifestyle. They are the ones who are best able to make the 
decisions, to make those tradeoffs to force the investors and 
the proponents of projects to come up with better alternatives.
    For example, high-efficiency gas turbines might be better 
than a hydroelectric dam. Forcing energy providers to 
internalize all the costs of their project forces 
accountability within an economic system, and ultimately 
protects the environment at the same time. So, I think they go 
hand in hand.
    Mr. Bobrow. Thanks.
    Mr. Foarde. Let me pick up the questioning now by picking 
up on the theme, Patricia, that you had in your original 
presentation. That is, the largest threat to the global 
environment not being the Chinese people, but rather the 
Chinese Government. Has your organization done any studies on 
the environmental impact on the rest of the region, or indeed 
the world, of, say, the Three Gorges project, or the types of 
environmental problems that we are seeing in China generally? 
If you have not, do you know anybody who has?
    Ms. Adams. There is a terrific network of groups working on 
the Mekong issues, the damming of the various rivers that come 
out of western China. They are now making links with Chinese 
environmental groups. In fact, a colleague of mine who was at a 
meeting recently said, ``You know, there is no difference.'' 
They are making the same arguments. I think there is a huge 
opportunity for them to work together. However, my 
understanding is, there is an awful lot of caution. It is 
still, I would say, more dangerous for the Chinese 
environmental groups to speak out than it is for the groups in 
the other countries.
    That is the most trans-border work that we have done. We, 
of course, are concerned about the downstream effects, and also 
ultimately on the ocean, in particular, of the Three Gorges 
dam. But most of our trans-border work has actually been on the 
issue of the various rivers that are originating in western 
China.
    Last year when the Dalai Lama was in Canada for a major 
religious event, a number of us met with him and talked about 
the Three Gorges dam. He was very concerned about that, and 
very concerned, obviously, about dams in Tibet and various 
other development projects that are proposed for Tibet. He felt 
that this was a wonderful opportunity for environmental groups, 
certainly from Canada, from China, and from the Tibetan areas, 
as well as the Mekong region, to work together. As he said, 
``It is not just good for Tibetan people. This is good for 
Chinese people. This is good for everybody.'' This is the head 
of many watersheds, and ultimately everybody is going to be 
well served by sound decisionmaking.
    Mr. Foarde. Good. Useful. Let me go on. Our time is getting 
short, but I know we have time for a couple more people to ask 
questions. Let me ask Susan Weld to pick up the questioning, if 
you would.
    Ms. Weld. Thank you very much. I am interested in the 
process of consultation. Many of the environmental rules in 
China require consultation. But is there any sense in which 
there can be more than mere consultation, where there can be 
real participation and forcing of government officials to go 
back to the planning board and rethink their plans?
    So, there is also a legal question in that. Is there 
anything like--I think not--the writ of mandamus in China that 
could be developed? Would that be an area in which legal 
development could help?
    Mr. Ru. As far as I know, public participation is a very 
new topic in China. Before that, I think most of the 
consultation was conducted among concerned ministries or 
concerned local governments. The newest development will be the 
2003 Environmental Impact Assessment law issued by China. This 
law specifically requires development plans or construction 
projects to conduct public participation in their environmental 
impact assessment [EIA] process. But as of today, this law has 
yet to develop any concrete or detailed procedures on how to 
implement the public participation process in EIA.
    I know that the American Bar Association has done some 
experimental work in Shenyang to promote public participation 
there. But the fundamental issues related to public 
participation have yet to be addressed.
    For example, who is the public, according to the 
environmental impact assessment law? There is no answer. Other 
questions include: How should the public be informed about the 
development projects or development plans? How should the 
public comments or public feedback be included and considered 
in the decisionmaking process? How can the public go against a 
decision made by the local government? So I think that might be 
a very promising area for international organizations or for 
foreign governments to help the Chinese Government figure out 
the process, figure out how to include the public in the EIA 
process.
    One recent event is that the American Bar Association 
organized a conference last December. I learned from one 
participant of the conference that some officials from local 
EPBs said that they knew there is an EIA law that required 
public participation, but they did not know how they should do 
it. So that would be really helpful if international assistance 
can help the Chinese Government at all levels to develop such 
capacity.
    Ms. Adams. We have not seen any formal--I guess that is the 
best way to describe it--method that citizens have used in 
order to get the authorities to go back to the drawing board. 
It has not been orderly. Often there are demonstrations or 
petitioning. But, of course, the rights of the citizens are 
irregular and vague, and so we have not seen anything formal 
yet. This may change with the new law.
    Although on the one hand, I think it is very good that 
citizens will now have the right to participate--to hear, to 
know, etc.--I do fear that they will just become part of what I 
would call ``a World Bank consultation process.'' That is one 
in which you get consulted, and consulted, and consulted, and 
consulted, and at the end of the day, the agencies that are 
making the decision do whatever they want, because the citizens 
who were consulted do not have any legal right to challenge a 
decision to proceed with, for example, a hydroelectric dam, or 
whatever the project happens to be.
    So we have not seen any formal legal process yet. Apart 
from attempts to encourage public debate and monitor public 
opposition through demonstrations and publish books that have 
recorded some of the opposition to various projects, none of it 
has been a formal legal process. What we have seen is really 
sort of a backlash against these decisions.
    Ms. Weld. It seems to me one basis would be the property 
right, so it could be actually a constitutional question.
    Ms. Adams. I would certainly agree with that. And the 
property rights can be enshrined in the form of customary 
property rights. Sometimes those rights are communal customary 
property rights, riparian rights, the right to land, the right 
to air, the right to be able to stop trespass of pollutants in 
your air, and so on. I agree completely. I think property 
rights is what it boils down to. So it amounts to some really 
fundamental laws and legal changes, and perhaps constitutional 
changes as well.
    Mr. Ru. I just want to add one more point. As I observed 
during the last two or three years, there are more and more 
homeowners in China who have stood up to fight against 
developers or government agencies to protect their property, to 
protect their rights.
    Another thing I observed is in the field of urban planning. 
More and more public participation activities have been 
conducted in many Chinese cities. For example, most local city 
planning bureaus have organized information disclosure 
activities, and some even organized public hearings. I do not 
know whether the hearings will influence the final city 
planning decisions made by local governments, but I believe it 
is definitely a promising progress.
    Mr. Foarde. As our time is just about up, I would like to 
recognize, for the final round of questions this afternoon, 
Carl Minzner. Carl.
    Mr. Minzner. Thank you very much. It has been a real 
delight to get to listen to you all. Let me just return to the 
question of Chinese environmental NGOs at the very end here. 
Both of you, in your different fields, have had an interaction 
with a wide range of environmental activities. Dr. Jiang Ru, 
you have interacted with formally registered organizations, and 
Patricia, you have interacted with people who have contact with 
more informal networks of people. First, who are the people who 
belong to these organizations? I have this impression that 
there is a disparity. I have an impression that maybe students, 
urban residents, and members of the intelligentsia belong to 
these organizations in the cities and these more informal 
networks of activities may be more rural-based. Correct me if I 
am wrong. I am interested in knowing that.
    The second part of the question is what is it that 
ultimately gets these environmental groups, both the formally 
organized ones and the more informal, loose networks, what they 
want, be it the creation of a wildlife reserve or the halting 
of a dam project? What is their action that ultimately succeeds 
in getting them what they want?
    Mr. Ru. My observation is that those GONGOs often have 
members with professional backgrounds in a specific field. For 
example, academic societies will often have professors or 
scholars as their members. For citizen-organized NGOs, their 
membership will be very diverse with many college student 
volunteers. Those people are not necessarily working in one 
field.
    In terms of the effectiveness of NGOs, my observation is 
that in the two case studies of my dissertation, they can only 
succeed if they can mobilize high-ranking State Council 
officials to intervene in the cases. If they cannot, they have 
limited leverage to influence local government's development 
decisions. Thanks.
    Ms. Adams. Carl, to answer your question about, ``who are 
these people? '' I do not see a disparity. We have worked with 
really everybody, from famous journalists like Dai Qing, to 
eminent scientists, many of them very elderly, who have seen a 
lot, know a lot, and are very skilled, to a lot of young 
scholars who are starting to emerge now and are speaking out as 
I think it is becoming a little bit safer to do so.
    More and more details about human rights abuses are 
becoming public, and we are hearing more and more about the 
individuals in the rural areas who are affected by the dams. 
They really are on the front line. They feel it first and they 
feel it for a long, long time. They are suffering terrific 
losses.
    I know that Dai Qing has warned about this problem, that we 
have a tendency, when we are concerned about, for example, 
human rights abuses, to worry about the more high-profile 
people who are often well known and can communicate outside of 
the country. But, in fact, the preponderance of these abuses 
are really happening in the rural areas to the people who do 
not have the same means of communication, and their numbers are 
really much larger.
    Mr. Foarde. Thanks to each of our panelists, all three of 
you, for giving us a very rich conversation this afternoon. We 
have gotten into a lot of topics in great depth, and it is very 
useful for us and for our Commission members to take advantage 
of your expertise.
    I want to pick up a theme of Dr. Jiang Ru's and wish each 
of you a happy and prosperous Year of the Rooster, and the same 
to everyone in the audience. Thanks to the panelists, again, 
and to everyone who attended this afternoon.
    Please keep your eye on our Web site and sign up for our e-
mail list service to get announcements about upcoming CECC 
hearings and roundtables.
    Thank you all very much. For this afternoon, we will call 
this roundtable adjourned.
    [Whereupon, at 3:35 p.m. the issues roundtable was 
concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Elizabeth Economy


                            FEBRUARY 7, 2005

    Environmental non-governmental organizations (NGOs) are at the 
forefront of strengthening civil society in China, drawing hundreds of 
thousands of Chinese citizens into environmental activities, forging 
non-state linkages across provincial boundaries, and establishing the 
Chinese people as political actors independent of state-directed 
policies. Environmental NGOs also play a critical role in advancing 
transparency, rule of law, and official accountability within the 
Chinese political system. Through this process, they have become a 
significant force for political 
reform.
    There are approximately 2000 environmental groups officially 
registered as NGOs, with perhaps as many registered as for-profit 
business entities or not registered at all. Over the past decade, since 
the establishment of China's first environmental NGO, Friends of 
Nature, there has been a transformation in the nature of environmental 
activism in China. Initially concerned primarily with the relatively 
politically ``safe'' issues of environmental education and biodiversity 
protection, environmental NGOs in China today are engaged in dam 
protests, filing lawsuits against polluting factories, and pursuing 
multinationals engaged in illegal activities. Most environmental NGOs 
in China exist as part of a much wider community of environmental 
activism involving China's scientific community, the media, 
multinationals, international non-governmental organizations, and 
elements of the Chinese government.
    The Chinese government has generally adopted a positive attitude 
toward environmental NGOs, recognizing that they fill a critical gap in 
the state's capacity to protect the environment effectively. Still, 
Beijing continues to exercise control over NGOs through a range of 
regulations and restrictions, remaining wary of the potential of 
environmental activism in China to transform into a force for much 
broader political change. China's State Environmental Protection 
Administration (SEPA) has emerged as a strong supporter of NGO 
activity, and works very closely with NGOs--both publicly and behind 
the scenes--to achieve common goals. At the local level, however, some 
environmental protection bureaus remain wary of NGO activity, fearing 
the NGOs will expose their lackluster performance.

              I. WHO ARE CHINA'S ENVIRONMENTAL ACTIVISTS?

    China's environmental activists tend to be educated, articulate and 
in many cases quite charismatic. Their background is varied: Liang 
Congjie is an historian and Wang Canfa is a lawyer, but the vast 
majority brings a media background to the table. Liao Xiaoyi, Dai Qing, 
Wang Yongchen, Hu Kanping, Shi Lihong, Wen Bo, Huo Daishan, and Xi 
Zhinong, among others were all journalists, photographers, or radio/
television personalities. This media background has proved invaluable 
in 
raising the profile of environmental issues within the Chinese 
government and throughout the country. Most of China's environmental 
NGO leaders have also spent significant time abroad, particularly in 
the United States either at universities or training with various U.S.-
based environmental NGOs. Several, including Liang Congjie, Liao 
Xiaoyi, and Wang Yongchen, have won major international environmental 
awards for their work.
    Many of the most renowned of China's environmental activists/NGOs 
are based in Beijing. However, they undertake activities throughout the 
entire country, including significant efforts in Tibet, Yunnan, and 
Sichuan. Many smaller, locally based NGOs have also sprung up to 
address local concerns, such as biodiversity protection, dam 
construction, and water pollution. While many of these smaller NGOs 
struggle with the government-mandated registration process and funding 
and membership requirements, the Beijing-based NGOs often try to 
nurture and develop these NGOs, providing them with training on grant 
writing, developing materials and programs, and even providing 
financial support.
    Universities have also become hotbeds of environmental activism 
with many of the larger universities boasting more than one 
environmental club. (University environmental groups may or may not go 
through the process of registration, which can be quite burdensome.) In 
2004, on Earth Day, a reported 100,000 Chinese college students in 22 
provinces participated in environmental activities organized by 
university groups.
    Through the internet, environmental websites such as Green Web, 
newspapers such as China Environmental News, China Green Times, 
Southern Weekend and 21st Century Business Herald, as well as 
television programs such as The Time for Environment, Chinese 
environmental activists reach millions of Chinese daily. One 
potentially harmful change to environmental outreach is the decision by 
the Chinese government that government bureaus are not required to 
purchase newspapers such as China Green Times. This has sharply limited 
the income and circulation of such environmental papers.

              II. THE NATURE OF THE ENVIRONMENTAL MOVEMENT

    Environmental NGOs in China address an increasingly wide range of 
environmental challenges. Some focus very specifically on one 
particular issue, such as 
environment-related public health problems, while others tackle a broad 
range of concerns from dam construction to tree planting to energy 
conservation.

<bullet> Environmental education remain a mainstay of Chinese NGO 
    activity: Friends of Nature supports environmental education vans 
    that travel throughout the country to provide environmental 
    education that is specifically targeted to the region at hand, for 
    example, overgrazing and desertification in Inner Mongolia. Green 
    Earth Volunteers and Global Village Beijing both organize 
    journalist salons to educate journalists on a wide range of 
    environmental challenges. More recently, the Institute of 
    Environment and Development has been developing a curriculum on 
    renewable energy education.
<bullet> Biodiversity protection also continues to drive significant 
    environmental activism in China. Many NGOs, such as Friends of 
    Nature, Green Earth Volunteers, Wild China, and Green River launch 
    campaigns and develop educational material including videos or 
    photographic exhibits to promote biodiversity protection. In 2004, 
    for example, a movie ``Kekexili'' was produced that discussed the 
    plight of the Tibetan Antelope. Recently some NGO activists have 
    been calling for greater emphasis to be placed on the protection of 
    plant as well as animal life. This focus on biodiversity protection 
    is supported by the strong presence in China of numerous 
    international non-governmental environmental organizations with 
    similar interests, such as WWF, Conservation International, the 
    Nature Conservancy, and the International Fund for Animal Welfare. 
    WWF, for one, has served as a training ground for many of China's 
    younger environmentalists.
<bullet> Energy Conservation and Efficiency is a relatively new focus 
    for China's environmental NGOs. The nuts and bolts issues of 
    developing energy efficiency codes for buildings or promoting 
    tradable permits for SO2 generally remain the purview of 
    International NGOs such as NRDC and ED along with their Chinese 
    think tank or government partners. However, Chinese NGOs have begun 
    to develop their own programs in the energy arena. During summer 
    2004, for example, Beijing-based NGOs launched a campaign to 
    persuade hotels and other large public buildings to keep their 
    thermostats at 26 degrees Celsius in an effort to conserve 
    energy. Thirty NGOs nationwide joined the campaign. In addition, 
    with the support of the Energy Foundation, Liao Xiaoyi of Global 
    Village Beijing, established the Sustainable Energy Journalist 
    Forum; there is an associated award given by the Energy Foundation, 
    WWF, and ON Semiconductor. Global Village Beijing also organized 
    journalists from Beijing to participate in a symposium sponsored by 
    Michelin on clean energy vehicles. One of the most interesting 
    initiatives is the effort by the Global Environment Institute, 
    directed by Jin Jiaman, to promote projects as wide-ranging as Bus 
    Rapid Transit, biogas in Yunnan, and assisting farmers in 
    developing renewable energy enterprises. This Institute is heavily 
    supported by the international community, including the Energy 
    Foundation, the Blue Moon Fund, and the International Network for 
    Bamboo and Rattan.
<bullet> Air and water pollution is yet another area of growing 
    interest and concern for China's environmental NGOs. Wang Canfa, 
    the director of the Center for Legal Assistance to Pollution 
    Victims, is a highly energetic and engaging man who has taken as 
    his mission getting redress for pollution victims through the legal 
    system. He has put forth about 60 cases, 20 of which have been 
    resolved successfully. His center is funded primarily by the Dutch 
    government. A different approach is taken by the Huai River 
    Protectors (Guardians), which was founded by Huo Daishan. It is a 
    grass roots organization that is committed to educating villagers 
    about the impact of the polluted water of the Huai River on their 
    health. This issue has been receiving significant attention in the 
    Chinese media, and CCTV recently completed a documentary film, ``A 
    Village and a River,'' that explores this problem. Huo is also 
    trying to assist villagers in digging deep water wells to gain 
    access to clean water.
<bullet> Large Scale Dams and Hydropower projects have also engaged a 
    number of Chinese NGOs both in Beijing and in the regions where the 
    dams are slated for construction. Over time, there has also been a 
    ``radicalization'' of the rhetoric of NGOs engaged in dam protests, 
    possibly due to the support of INGOs such as International Rivers 
    Network, such that Chinese NGOs now talk extensively about social 
    justice and displaced peoples rather than focus exclusively on 
    consequences for the environment or ancient cultural sites. The 
    NGOs have achieved some significant success in Sichuan and Yunnan 
    but not without fierce political battles and some personal risk. 
    Green Watershed of Yunnan, Wild China, Green Earth Volunteers, 
    Friends of Nature, and China Rivers Network have all taken up the 
    fight to slow dam construction on China's rivers. They have 
    undertaken a wide range of activities in this effort. Wang 
    Yongchen, for example, participated in the World Commission on Dams 
    in Thailand and gathered signatures from 61 countries against the 
    dam construction on the Nu River in Yunnan. In a separate fight to 
    prevent a dam, Chinese activists garnered 15,000 signatures via the 
    internet. At great personal risk, Yu Xiaogang of Green Watershed 
    organized trips for villagers slated for relocation at one dam site 
    in Yunnan to speak with villagers from other dam sites, whose 
    relocation had been far from successful. His damming report to the 
    Central Disciplinary Committee in Beijing as well as the Yunnan 
    Provincial government almost caused the NGO to be closed and Yu to 
    be arrested. The Civil Affairs Bureau, the Academy of Social 
    Science, and Green Watershed's sponsor, the Yunnan Association of 
    Science and Technology, however, declared that Yu's work was well 
    within the scope of his NGO's charter. The issue of relocation for 
    dams is a highly politically sensitive one. In October as many as 
    100,000 farmers from seven townships in Sichuan Province reportedly 
    gathered to protest their proposed compensation and relocation as a 
    result of the Pubugou Dam construction. They had witnessed what had 
    happened to other villagers who had been relocated a few years 
    earlier: they received substandard housing on poor land. Thousands 
    of People's Armed Police were brought in to keep the peace. China 
    Youth Daily did its own investigation questioning the project and 
    the relocation plan and found that local officials had budgeted one 
    billion less in relocation compensation than had been promised. In 
    the end, several local officials were fired.

             III. NGO RELATIONS WITH THE CHINESE GOVERNMENT
 
   China's State Environmental Protection Administration generally 
works very closely with environmental NGOs. Environmental NGOs agitated 
for SEPA to be included in the Go West campaign leading group, 
supported the call for a green Olympics, worked with SEPA on an energy 
efficiency campaign, and serve as SEPA's eyes and ears at the local 
level. Even on the most sensitive political issues such as dam 
construction, there is a strong alliance between NGOs and SEPA. The 
decision in late January 2005 by SEPA Vice-Director Pan Yue (with the 
support of Premier Wen Jiabao and the State Council) to bring to a halt 
30 large infrastructure projects including 26 power-related projects on 
the grounds that environmental impact assessments were not properly 
completed suggests strong support within the top reaches of Beijing for 
NGO activity in this realm. These projects however, also speak to other 
central government priorities such as enforcing the rule of law and 
slowing large-scale investment.
    Still SEPA support for NGOs is very strong. It is common now for 
high ranking SEPA officials, such as Pan Yue, to articulate the 
necessity of environmental NGOs for safeguarding the environment. Pan 
has also said that within the next two years, SEPA will help to 
establish an NGO cooperation network and to provide professional 
training for small grassroots groups. He believes that it is critical 
to have the Chinese people engaged in environmental protection and to 
open the decision making process for environmental issues to make it 
``democratic.''
    More generally, however, the government keeps a watchful eye on 
environmental NGOs, as well as on all registered NGOs. Officially, NGOs 
must have a government-sponsor to whom they report their membership, 
funding sources and activities. NGOs are not permitted to have branch 
organizations in various provinces, and no person who has been labeled 
a political dissident may be a member of an NGO. NGO leaders say that 
the degree to which all of these strictures are enforced varies 
according to the sponsor. There remains a concern in some parts of the 
Chinese government that NGOs are subversive entities. In 2002, Friends 
of Nature was forced to remove one of its founding board members, Wang 
Lixiong, because of his support for two Tibetan monks who were about to 
be executed, or face closure. There are also periodic crackdowns in 
which NGOs are shut down for violations as innocuous as not having 
sufficient funding or sufficient number of members. Nonetheless, during 
fall 2004, the Ministry of Civil Affairs suggested that discussions 
were underway to lift the requirement that NGOs become affiliated with 
a government sponsor.

                        IV. WHERE TO FROM HERE?

    Chinese environmental NGO activists are a politically skilled and 
sensitive group. Over the past decade, they have moved into areas of 
greater technical challenge and political sensitivity with notable 
success. Still, as the environmental movement in China continues to 
evolve, several challenges remain:
    First, some Chinese and outside observers have argued that Chinese 
NGOs are more effective at identifying problems rather than at 
proposing answers and shy away from addressing technically oriented 
challenges. The State Environmental Protection Administration, for 
example, was disappointed that NGOs did not participate in a SEPA-
advertised public hearing in August for comments on its draft rule on 
emission permit license management. Four individuals and 12 companies 
participated, but no NGOs.
    Second, China's NGOs remain heavily reliant on international 
funding for their work. International Foundations, multinationals, and 
other governments provide an overwhelming portion of Chinese NGO 
financial wherewithal. Some challenges arise from this situation.
<bullet> Chinese NGOs remain open to political criticism down the line 
    that they are actually foreign-directed enterprises. While some 
    smaller NGOs and websites exist primarily on Chinese contributions, 
    there has yet to develop a real strategy on the part of Chinese 
    NGOs to attract funding from Chinese sources. (One positive trend, 
    in this regard, is the establishment of an association of Chinese 
    businesses committed to supporting environmental protection.)
<bullet> There are signs of some resentment on both sides due to 
    differing strategies and capabilities. Some sectors of the Chinese 
    NGO community are articulating a desire for greater independence 
    from international donors. They complain that international donors 
    don't appreciate how difficult it is to make progress and are too 
    short-sighted; and that international supporters try to direct some 
    of the projects, thereby distracting Chinese NGOs from pursuing the 
    projects they are most suited to tackle. From the international 
    perspective, some donors have likewise voiced the opinion that some 
    Chinese NGOs have taken money and not delivered on what was 
    promised and are not technically proficient enough to do the work 
    that needs to be done properly.
<bullet> Third, until the Chinese government removes its restrictions 
    on NGO registration and otherwise supports the development of civil 
    society, the environmental movement may remain limited in size, as 
    well as forced to operate under the shadow of knowledge that 
    political caprice or shifting political winds could force them to 
    pull back from their efforts or risk being shut down entirely.
                                 ______
                                 

                     Prepared Statement of Jiang Ru

                            FEBRUARY 7, 2005

    As an independent scholar, I hope my statement can introduce you 
and other 
policymakers in this country a new perspective on the dynamics of state 
controls of environmental NGOs in China. This statement is based on my 
Ph.D. dissertation, Environmental NGOs in China: The Interplay of State 
Controls, Agency Interests and NGO Strategies, completed in August 2004 
at Stanford University. The statement I make today represents my 
personal opinions only and does not reflect the views of any 
organizations I was previously or am currently affiliated with. In my 
ten minutes I will introduce the design and implementation, and then 
four of the main findings of my research. My findings indicate that 
despite onerous state control measures, environmental activists were 
able to create NGOs and operate with a fair amount of freedom by 
censoring activities of their NGOs. Understanding the growing autonomy 
and self-censorship of Chinese NGOs provides considerable opening for 
international organizations to assist Chinese environmental NGOs.

                    STUDY DESIGN AND IMPLEMENTATION

    The goals of my research is to understand how the Chinese state has 
officially described its control of NGOs, how the state has controlled 
environmental NGOs in practice, and how environmental NGOs have 
interacted with the state to conduct their activities. To achieve my 
research goals, I analyzed China's NGO policies and regulations to 
identify measures the state has employed to control NGOs, surveyed a 
group of 11 national and 11 Beijing environmental NGOs to understand 
how NGO control measures were enforced in reality based on these NGOs' 
experience, and conducted three case studies to further examine how 
different environmental NGOs had interacted with government agencies at 
national and local levels to save three endangered wildlife species. 
The NGOs I studied included both formally registered government-
organized NGOs (Bongos) with over ten full-time staff members and 
unregistered citizen-organized NGOs with only few volunteers. From 1999 
to 2003, I made four trips to China and stayed in China for a total of 
21 months. During these trips, I interviewed governmental officials, 
NGO staff members, NGO researchers, environmental volunteers, and 
environmental experts. In addition, I collected multiple sources of 
evidence such as governmental documents and NGOs' internal documents.

                           RESEARCH FINDINGS
 
   Four main findings of my dissertation are:

1. The Chinese State has developed a vigorous set of NGO regulations to 
        control the development and activities of NGOs. Three key 
        control measures of these regulations are:
<bullet> An NGO has to be registered at a civil affairs office 
    according to its geographic scope of activities;
<bullet> An NGO has to find a supervisory organization to sponsor its 
    registration with a civil affairs office. Here, a supervisory 
    organization, referred to as a ``mother-in-law organization'' by 
    some scholars, is a state-authorized organization that sponsors an 
    NGO's registration application to a civil affair office, and then 
    supervises the NGO's activities after the NGO registers with the 
    civil affairs office; and
<bullet> Civil affairs offices will force NGOs to correct any 
    violations of above-noted and other NGO control measures.
2. Some of the 22 environmental NGOs I surveyed experienced no strict 
        state control declared in NGO regulations.
    Based on experience of the 22 NGOs, I found that some of these NGOs 
violated above control measures without being punished by civil affairs 
offices. For example, five citizen-organized NGOs were not registered 
with any civil affairs offices as independent NGOs but conducted their 
activities openly without experiencing any explicit control exerted by 
any government agencies. For those NGOs registered with civil affairs 
offices, civil affairs offices had only controlled the registration of 
these NGOs. A common statement made by my NGO interviewees was that 
civil affairs offices had barely interfered with their NGOs' 
operations. In contrast to civil affairs offices, supervisory 
organizations of those GONGOs included in my study did not only 
supervise the operations of these NGOs, but indeed exerted financial 
and/or personnel control over those NGOs.
3. The state's control has been implemented in the ways described above 
        because of the state's decreasing administrative capacity, the 
        interests of supervisory organizations that control NGOs for 
        their own ends, and ability of the NGOs to censor themselves to 
        the degree that their activities does not lead to repressive 
        actions by the state.
    Civil affairs officials I interviewed stated that their offices had 
limited resources to track and correct every NGO violation. In 
addition, because civil affairs offices had no resources to register 
all prospective NGOs and the Chinese government had a policy to 
encourage voluntary activities as a way to advance the well-being of 
society, civil affairs offices allowed the existence of unregistered 
NGOs as long as these NGOs had not committed any financial misdeeds or 
posed any political threats. This strategy of civil affairs offices was 
well acknowledged by the 22 environmental NGOs I studied. According to 
my interviewees, self-censorship of these NGOs helped them avoid any 
unwanted attention of civil affairs offices. Although some of the 22 
NGOs violated formal control measures, leaders of these NGOs were aware 
of the limits on how far they could go in violating controls without 
attracting negative attention from the state.
    In terms of government agencies acting as supervisory organizations 
of the GONGOs included in my study, I found that self-interests 
motivated these supervisory organizations to exert financial and/or 
personnel control over the GONGOs they supervised. In practice, 
supervisory organizations used the GONGOs to engage in international 
cooperation projects, to raise funds, to provide services, and to place 
excess employees when their agencies are downsized.
4. GONGOs are generally effective in performing tasks related to 
        official responsibilities of their supervisory organizations, 
        such as policy consultation and information exchange. In 
        contrast, citizen-organized NGOs were engaged mainly in three 
        types of activities: public education, environmental advocacy, 
        and grassroots environmental activities.
    This finding is based on the daily activities of the 22 NGOs and 
their efforts in the three wildlife conservation cases. Citizen-
organized environmental NGOs included in my study were especially 
effective in mobilizing resources to challenge local development 
decisions that were detrimental to the natural environment. However, I 
found no NGOs took any confrontational approaches to conduct their 
activities.
                                 ______
                                 

                  Prepared Statement of Patricia Adams

                            FEBRUARY 7, 2005

    Thank you very much for the opportunity to participate in this 
Congressional-
Executive Commission on China Roundtable. I am the Executive Director 
of Probe International, a Canadian-based environmental NGO. For 25 
years, we have worked with citizens in Third World countries to help 
them fight development projects that undermine the environments they 
depend on.
    Since the early 1980s, Probe International has monitored the 
world's largest and most controversial dam project, the Three Gorges 
dam on China's Yangtze river. We have done so by working with 
academics, researchers, and press in China, including Dai Qing, the 
celebrated Chinese journalist who spent 10 months in jail for 
publishing ``Yangtze! Yangtze!,'' a book authored by China's most 
eminent scientists and scholars. Probe International translated and 
published ``Yangtze! Yangtze!'' and a subsequent book edited by Dai 
Qing, called The River Dragon Has Come!. Both books are banned in 
China. We also published our own damning critique of the dam's official 
feasibility study, which was financed by the Canadian government, 
conducted by Canadian engineers, and used to justify building the Three 
Gorges dam.
    I am also the publisher of Three Gorges Probe, an Internet news 
service that Probe International began in 1998 to report on Three 
Gorges and other dams in China. Our goal has been to circumvent the ban 
on criticism of the Three Gorges dam. We believe that projects like 
Three Gorges can be built only in the absence of good information about 
their real costs and benefits, and in the absence of an informed public 
debate. Our goal is to let the facts, for and against dams, speak for 
themselves, and to help inform the public by providing the Chinese 
press, scholars, and activists with a safe forum in which to publish 
their views. But perhaps our news service's most important goal is to 
record and publish details of the harm done by Three Gorges and other 
dams, in the hope that future generations will be protected from more 
of the same.
    Three Gorges Probe is published in both English and Chinese. The 
two sites together have close to a quarter of a million page views per 
month and their readership grew at a rate of almost 150 percent last 
year.
    Despite the fact that we often publish censored information, our 
site has generally not been blocked in China and our readers from the 
mainland have described Three Gorges Probe as the ``best,'' ``most 
accurate,'' and the only ``truthful'' source of information about the 
dam. Three Gorges Probe is relied upon by the press, scholars, 
environmentalists, and grassroots activists. Dam officials also read 
it: Sometimes, within days of our stories exposing a scandal or a 
threat to the dam, dam authorities would announce either that the 
problem doesn't exist or is being solved. Our stories have ended up on 
the front pages of the international media, including the New York 
Times and the UK's Guardian, on Chinese Internet sites around the 
world, in the chatrooms of China Youth Daily, Sina.com and even the 
Changjiang Water Resources Commission.
    Here's a sample of the stories we've covered:

          1. An exclusive report revealing endemic corruption, 
        debauchery and an underworld that now robs and terrorizes dam 
        evacuees who are being resettled by the Three Gorges dam;
          2. The arrest, detention, trial and conviction of four 
        representatives of dam evacuees from Yunyang county who 
        attempted to recover their community's compensation funds from 
        corrupt local officials by appealing to the Communist Party in 
        Beijing. They were sentenced to two and three year jail terms 
        for ``maintaining an illicit relationship with a foreign 
        country'' and for ``disturbing the public order;''
          3. An energy analysis showing that Three Gorges power is more 
        expensive than power from high efficiency gas turbines and 
        cogeneration, and ineffective at displacing coal-fired power;
          4. Leaked correspondence between China's top leadership 
        admitting that Qinghua University research shows that the dam's 
        flood control benefits are inadequate and ``smaller than 
        declared by us.'' But, warn the correspondents, ``never, ever 
        let the public know this;''
          5. Warnings by two senior members of the Chinese Academy of 
        Engineering that incidents of earthquakes and landslides 
        indicate that the Three Gorges region is geologically unstable, 
        that lives are at risk, and that geological-safety inspections 
        of resettlement zones must be carried out immediately and 
        checked and double-checked;
          6. A report on cracks in the dam which are more than a meter 
        deep and run all the way up the huge concrete structure, 
        leading to emergency repair work and promises by dam 
        authorities to take greater care in future;
          7. A surprise announcement by dam operators that it would 
        raise the reservoir level from 135 to 139 meters 3 years ahead 
        of schedule, forcing the emergency evacuation of 1,300 
        residents from their homes. Independent experts think the 
        reason was to protect electricity output which is threatened by 
        an unexpected rise in the accumulation of silt behind the dam;
          8. During the news blackout of the surging anti-dam protests 
        at the Pubugou dam site in Sichuan province last October and 
        November, we reported on the violent clashes with police 
        resulting in several deaths, hundreds of villagers detained, 
        several dozen farmers hospitalized and the emergence of the 
        ``dare-to-die brigade''--elderly men and women who taunted the 
        police with shouts of, ``Kill us, kill us! We will no longer 
        have to move if you kill us!'' (This period was one of the few 
        in which our Web site was blocked.)
          9. A report on farmers in Hebei province who risked life and 
        liberty in 2004 to dodge police and gather more than 11,000 
        signatures on a petition calling for the removal of Zhang He, 
        the former mayor of Tangshan and the city's Communist Party 
        boss. The petition accused Zhang He of stealing compensation 
        funds intended for people who were forced to move in the 1990s 
        to make way for the Taolinkou reservoir on the Qinglong River. 
        Seven of the farmers were arrested by local police as they 
        attempted to deliver their petition to the National People's 
        Congress. Their lawyer escaped, however, and was chased by 
        Tangshan police around Beijing, from one hiding spot to 
        another, and one computer to another, from which he gave online 
        updates of the unfolding drama and with which he did Google 
        searches to get more information on the ``assembly and 
        demonstration law,'' ``the Constitution of the PRC'' and ``the 
        representative law of the National People's Congress and 
        people's congresses at local levels'' to assist his clients.
          10. We have posted the Chinese, and now the English version, 
        of a remarkable book by a Chinese social scientist, Ying Xing, 
        about the ruinous impacts of the Dahe dam built on a Yangtze 
        tributary 30 years ago and the determination of ordinary 
        citizens who fought for their rights in a 20-year struggle. 
        Many of the 20,000 people affected by that dam are now being 
        forced to move for Three Gorges. The book, The Story of the 
        Dahe Dam, was published in China to great acclaim in 2001, and 
        was banned 6 months later. It remains banned today.

                    WHERE DO WE GET OUR INFORMATION?

    Until recently, details of citizen protests or criticism of dams in 
China have not come from formally recognized, government approved NGOs 
that are able to hang up a shingle advertising their existence. And, 
until recently, lawyers have not come forward to help aggrieved 
citizens. With the exception of a few aggressive newspapers, very 
little information beyond propaganda has come from the mainland media.
    Instead, over the past 20 years, critical information about Chinese 
dams has come in an ad hoc way from journalists, activists, site 
research, the Internet, and dam authorities. Much of the expert opinion 
we rely on has come from Chinese scholars, many of whom are elderly 
and, having survived years of abuse for voicing their opinions, have 
become even firmer in their resolve to speak out for the sake of future 
generations. Over the years, academics who dared to criticize dam plans 
such as Huang Wanli, China's most eminent hydrologist, were made to do 
hard labour building the dams. They were deprived of their teaching 
posts and shunned in their professional lives. This has been a tragic 
reality for dam critics. Some have been deprived of research funds, 
others have lost their right to work and to publish. Others have been 
demoted. Still others have been visited in the middle of the night by 
the police and warned not to talk to foreign journalists.
    Academics aside, average citizens such as He Kechang and his 
compatriots in Yunyang county have been jailed on trumped up charges 
because they sought justice for the losses they suffered because of the 
Three Gorges dam. The few mainland newspapers that have dared to 
disclose damming details about Three Gorges or other planned dams have 
had their top editors fired and their management charged with 
corruption. In our own work to publish critical information about the 
environmental, economic and technical problems with Chinese dams, we 
have had to take precautions. Most of our Chinese contributors use 
pseudonyms. We are always circumspect in our communication.
    I believe this oppressive atmosphere is going to change.
    The recent protests against the proposed construction of dams in 
Western China along the Nu and Jinsha (upper Yangtze) rivers in Yunnan 
and the Min River and Pubugou dam in Sichuan are a sign of the changing 
times: Chinese citizens affected by dams are becoming acutely aware of 
their rights and are prepared to fight for them; academics and 
environmentalists are able to help them, the press is very interested 
in covering their stories, and the Internet facilitates all parties' 
communication. These protests have been so effective that, by the end 
of 2004, work on over a dozen dams had been suspended.
    While environmentalists, NGOs, and the affected communities in 
China have made great gains in their struggles against these big dams, 
people such as Dai Qing report that everybody knows these victories are 
temporary. And, she adds, it is likely that the vested interest 
groups--powerful forces including officials of the dam enterprises and 
the ministries that sponsor them--will do everything possible to stage 
a comeback, cracking down on the environmental organizations and 
attacking the leaders.
    But there is at least one reason to hope that the ``benefit 
groups,'' as Dai Qing calls the beneficiaries of the current system, 
won't resort to their old methods of repression to build their dams. It 
is this.
    On January 18 of this year, the State Environmental Protection 
Administration (SEPA), China's top environment watchdog, accused 30 
infrastructure projects (26 of which are energy schemes) in 13 
provinces and municipalities, involving billions of dollars, of 
starting construction before their environmental impact assessment 
reports were approved. It then ordered them to suspend construction. 
This is an extraordinary and unprecedented move by the central 
government. The Chinese environmental enforcement authorities sent 
state enterprises and the private sector a message they have never 
heard before: We have a law that requires you to submit an 
environmental assessment for your project in order to get approval to 
proceed and if you don't abide by the law, we'll suspend your 
construction until you do so.
    According to China's Law on Environmental Impact Assessment, which 
took effect on September 1, 2003, construction projects should not be 
started before their environmental impact assessment documents are 
approved by environment authorities. Furthermore, the law is supposed 
to oblige project developers to consult with local communities before 
decisions are made. Indeed, Pan Yue, the vice-director of SEPA, 
announced that in future public hearings will be held on 
environmentally sensitive projects to allow residents and other parties 
into the decisionmaking process.
    By January 24, construction on 22 out of the 30 projects had 
stopped.
    Construction on the remaining eight of those projects continued, 
including three hydropower plants of the China Three Gorges Project 
Corporation. Two of the plants are part of the Three Gorges Dam complex 
(the Three Gorges Underground Power Plant and the Three Gorges Project 
Electrical Power Supply Plant) and the third is the Xiluodu Hydropower 
Plant along the Jinsha River, a section of the upper reaches of the 
Yangtze River, a $5.3 billion project and is the biggest among the 30.
    SEPA threatened the China Three Gorges Project Corporation with 
legal action and the drama of the stand-off between SEPA, heretofore 
considered a toothless environmental regulator, and the China Three 
Gorges Project Corporation, one of the nations' most powerful and 
China's largest hydro-electric power company, mounted. The domestic 
media dubbed the actions as an ``environmental impact assessment 
storm.''
    Then, on February 2, the developer of the Three Gorges Project 
Corporation backed down, agreeing to file environmental impact 
statements for two power plants and to hold up construction on a third.
    The compliance of the Three Gorges company, which had refused to 
obey the order for a fortnight, was believed to come about as a result 
of direct pressure from the central government. Not only has China's 
Premier, Wen Jiabao, backed SEPA but, according to news reports, SEPA 
enlisted the support of the powerful National Development and Reform 
Commission (NDRC), the country's top planning authority, to enforce its 
order.
    Furthermore, during the stand-off, SEPA and the National 
Development and Reform Commission issued a notice about the need for 
environmental protection during the building of hydropower plants. 
According to the notice, some projects start construction without 
environmental protection facilities, causing soil erosion, while others 
cause negative impact on the ecology of the lower reaches due to 
defects in design and operation. Great importance should be attached to 
the environmental impact assessment of hydropower development plans, 
the notice said. Hydropower projects should also take concrete 
environmental protection measures.
    Li Dun, of Tsinghua University's Centre for the Study of 
Contemporary China, said the cooperation between SEPA and NDRC was 
encouraging, but he remained cautious. SEPA has not dealt with 
fundamental environmental issues such as whether those projects should 
be built in the first place. ``It remains to be seen whether the 
Environmental Impact Assessment Law is just a process,'' he said.
    Professor Li is absolutely correct.
    SEPA's environmental assessment law is not going to save China's 
environment. My organization has a 20-year history of reviewing 
feasibility studies for large development projects, starting with the 
massive feasibility study for the Three Gorges dam, which included an 
environmental assessment. It was so rife with errors, omissions, and 
bias that we filed formal complaints of professional negligence against 
the engineering firms that conducted it.
    Environmental assessments are usually conducted by the proponents, 
paid for by the proponents, or controlled by the proponents. Because 
the proponents are not held legally accountable to those they harm or 
put at risk, proponents can discount the costs they inflict on others. 
Their environmental cost assessments need not accurately or 
comprehensively match reality. Their assessments routinely overestimate 
benefits without substantiation, but with hyperbole. In the end, 
environmental assessments become nothing more than public relations 
exercises to whitewash bad projects.
    I doubt that the environmental NGOs, legal commentators, and 
scholars who have followed SEPA's unprecedented actions over the past 
few weeks expect the agency's move to permanently stop any of these 30 
projects. But SEPA's enforcement of China's new Environmental Impact 
Assessment Law could have a profound effect in a different way. By 
upholding the law, SEPA would force proponents to carry out 
environmental assessments and to consult with local communities before 
giving approval for infrastructure projects. In so doing, the central 
authorities would uphold and enforce the rights of Chinese citizens and 
NGOs to know, to debate, and to participate in the decisions that 
effect their environment. In a country where citizens have been jailed, 
fired, demoted, threatened and even physically attacked for attempting 
to exercise these basic rights, this is a fundamental step toward 
enshrining the right of citizens to protect their environment.
    Many commentators look at China's 1.3 billion citizens and see them 
as the world's largest threat to the global environment. I don't see 
them that way. Instead, I see the Chinese government as the largest 
threat and the citizenry as the world's largest group of front-line 
defenders of the environment. Give Chinese citizens the right to know, 
the legal and political tools, and the security to exercise their 
rights and to hold accountable those who would destroy their 
environment, and the world will see a dramatic turnaround in the dismal 
state of China's environment.
    Thank you.

                                 <all>

</pre></body></html>
